No. _______________
IN THE
SUPREME COURT OF THE UNITED STATES
DELOYD JONES,
v.

Petitioner,

UNITED STATES OF AMERICA,
Respondent.
On Petition for Writ of Certiorari
to the United States Court of Appeals for the Fifth Circuit
DECLARATION OF FILING
NOW COMES Assistant Federal Public Defender Samantha J. Kuhn,
court-appointed counsel for Petitioner Deloyd Jones, and states under oath as follows:
1.

On Thursday, the 19th day of November, 2020, I electronically filed the

Motion for Leave to Proceed in Forma Pauperis and the Petition for Writ of Certiorari
by using the electronic filing system in the above-captioned case to to the Clerk of the
Supreme Court of the United States.
3.

Filing these documents in this manner complied with Supreme Court

Rules 12 and 29. Filing these documents on this date complied with the Supreme
Court time limit in Supreme Court Rule 13, as modified by the Court’s Order of
March 19, 2020, extending the 90-day deadline to 150 days from the date of the lower
court’s judgment.

I declare under penalty of perjury pursuant to 28 U.S.C. § 1746 that the
foregoing is true and correct.
Executed on this 19th day of November, 2020.

/s/ Samantha Kuhn
SAMANTHA J. KUHN
Assistant Federal Public Defender
Counsel of Record
Office of the Federal Public Defender
500 Poydras Street, Suite 318
Hale Boggs Federal Building
New Orleans, Louisiana 70130
(504) 589-7930
samantha_kuhn@fd.org

2

